 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




DISPUTE RESOLUTION FOR MEDICAID
    MANAGED CARE ENROLLEES




                         MAY 2001
                       OEI-09-99-00450
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's San Francisco regional office prepared this report under the direction of Paul A. Gottlober,
Regional Inspector General. Principal OEI staff included:

REGION                                                 HEADQUARTERS

Scott Hutchison, Project Leader                        Linda Frisch, Program Specialist
Timothy Brady, Co-Project Leader




    To obtain copies of this report, please call the San Francisco Regional Office at 415-437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                 EXECUTIVE SUMMARY

PURPOSE

    To examine the dispute resolution process for Medicaid beneficiaries enrolled in managed care
    plans and assess how States have implemented Federal due process requirements.



BACKGROUND

    The Supreme Court established Medicaid beneficiaries’ right to due process in 1970 in
    Goldberg v. Kelly (397, U.S. 254, 1970). Due process rights were extended to Medicaid
    managed care beneficiaries in 1993 in J.K. v. Dillenberg (836 F Supp. 694, 699 D AZ 93).
    To fulfill due process requirements, States must guarantee all Medicaid beneficiaries access to
    State fair hearings when their benefits are adversely affected by a government action. In
    addition, any managed care plan that contracts with a State Medicaid agency must operate its
    own internal grievance process. States may require managed care enrollees to exhaust the
    internal plan process before granting a request for State fair hearing. States and plans must
    issue and publicize their dispute resolution procedures.

    We conducted on-site reviews at nine States selected on the basis of Medicaid and managed
    care enrollment, geographic diversity, and program diversity. For each State, we collected
    data from Health Care Financing Administration (HCFA) personnel, State Medicaid agency
    staff, fair hearing officers, the State Attorney General or equivalent, managed care plan staff,
    and legal advocates. We analyzed State policies, regulations, guidelines, and enrollee
    information including beneficiary handbooks and notices.



FINDINGS

    Overall, the dispute resolution systems in the nine States we studied appear to be working as
    intended. There are, however, opportunities for improvement.

    Dispute resolution systems have been established in the sampled States. Beneficiaries
    have multiple avenues to address any disputes they have with their managed care plans. These
    include internal grievance processes, State fair hearings, ombudsman programs, and processes
    operated by other State agencies. Beneficiaries appear to be well-served by this array of
    options; however, advocates and others are concerned that the diverse choices may cause
    confusion. In-plan processes can be difficult to access, but also effective. State fair hearings
    are generally user-friendly and accessible. A number of managed care plans serve both
    Medicare and Medicaid beneficiaries and must maintain different dispute resolution system for
    each programs.
        Medicaid Managed Care Dispute Resolution
                                                   1                                OEI-09-99-00450
   States conduct few managed care hearings, and managed care organizations receive
   relatively few complaints and grievances. Requirements to exhaust plan processes, the
   availability of alternative procedures, and a prevailing attitude of avoidance may contribute to
   the low numbers of hearings, complaints, and grievances. Furthermore, managed care plans
   may be misreporting complaints as simple inquiries, and beneficiaries may not have a clear
   understanding of their appeal rights.

   Member materials and notices are often inadequate. Although member materials from all
   States and plans contain some information about appeal procedures, they vary widely in quality.
   Beneficiary notices also contain many deficiencies, and some seem to require advanced
   comprehension skills. Despite the overall poor quality of materials, we did find some promising
   approaches in a few States.

   Regulations governing fair hearing timeframes are flexible, but can be ambiguous.
   States utilize Federal flexibility to institute different timeframes for filing a fair hearing request.
   Regulations do not address the coordination of State and plan processes, which can be
   problematic.

   States have different interpretations of the plan’s role, as well as their own, in fair
   hearings. In some of the sampled States, managed care plans represent the State’s interest in
   fair hearings and beyond, while in others the plan is seldom, if ever, a party to the hearing. Two
   States have arrangements which seem to violate Federal rules for the impartiality of hearing
   decisions. Finally, while Federal guidelines state that a fair hearing decision must be extended
   to all beneficiaries in an identical situation, hearing decisions are not precedential.

   Oversight of dispute resolution is inconsistent. The HCFA regional offices conduct very
   little oversight of dispute resolution in States’ Medicaid managed care programs. While many
   States conduct rigorous oversight of plans, others adopt a more relaxed attitude. In addition,
   there is little coordination among agencies in States with multiple dispute resolution processes.
   Furthermore, lack of consistent definitions of dispute terminology complicates oversight for both
   HCFA and the States. Data quality in the States varies; however, States that view complaint
   data as an opportunity for improvement believe plan data is reasonably accurate.



RECOMMENDATIONS

   A final rule published by HCFA in the January 19, 2001 Federal Register addresses problems
   we found regarding inconsistent dispute terminology, unclear dispute timeframes, and
   beneficiary education and notification. The rule becomes effective on




       Medicaid Managed Care Dispute Resolution
                                                  2                                   OEI-09-99-00450
   June 18, 2001. To further strengthen the dispute resolution process, we recommend that
   HCFA:

          <        develop model beneficiary notices and handbooks;

          <        improve regional oversight; and

          <	
          <        use, and encourage States to use, dispute resolution data as a way to
                   improve quality of care.



AGENCY COMMENTS

   We received written comments from HCFA on the draft report (see Appendix). The HCFA
   concurred with our recommendations. In response to our recommendations, HCFA will
   improve Medicaid consumer communications, regional oversight of the appeals process, and
   dispute resolution data.




       Medicaid Managed Care Dispute Resolution
                                                  3                           OEI-09-99-00450
                              TABLE OF CONTENTS

                                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Systems in place . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Few hearings and grievances . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Inadequate member materials . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Timeframes ambiguous . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          States’ and plans’ roles . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Inconsistent oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20





                 Medicaid Managed Care Dispute Resolution
                                                                       4                                                       OEI-09-99-00450
                                   INTRODUCTION

PURPOSE

         To examine the dispute resolution process for Medicaid beneficiaries enrolled in managed care
         plans and assess how States have implemented Federal due process requirements.



BACKGROUND

Medicaid and Managed Care History

         Congress created Medicaid in 1965, under Title XIX of the Social Security Act, as a joint

         Federal/State program to serve disadvantaged people. Although the Health Care Finance

         Administration (HCFA) retains regulatory authority over the program, States have been given

         significant latitude in developing their own Medicaid policies. Within broad Federal guidelines,

         States establish their own eligibility standards, determine what services they will cover, set

         payment rates for services, and administer their own programs. Low-income families and

         Supplemental Security Income recipients are among the primary beneficiaries of Medicaid. In

         December 1999, more than 32 million people, about 11 percent of the total U.S. population,

         were enrolled in the program.


         Under Title XIX, States may operate voluntary managed care programs without special

         permission, but must apply for waivers to mandate enrollment or to be exempt from certain

         requirements. Research and Demonstration Waivers (or 1115 Waivers) permit HCFA to

         authorize experimental, pilot, or demonstration projects which are likely to promote Medicaid

         program objectives. Among other things, States granted a

         1915(b) “Freedom of Choice” waiver may mandate enrollment into managed care and create

         “carve-outs” for the delivery of specific sets of services, such as mental health services, in a

         managed care environment.1


         The Balanced Budget Act of 1997 eliminates waiver requirements for most Medicaid

         populations.2 States may now elect the 1932(a) State Plan option to mandate enrollment 





         1
           States could also apply for a 1915(c) Home and Community-Based waiver, which allows States to develop
systems of non-institutional care for Medicaid beneficiaries. Programs created under such waivers are not a focus of
this study.
         2
          Waivers are still required for dual-eligibles (beneficiaries qualified for both Medicare and Medicaid),
children with special needs, and American Indians.
              Medicaid Managed Care Dispute Resolution
                                                           5                                             OEI-09-99-00450
     in managed care, provided the beneficiary has a choice between at least two plans.3 It also
     adds increased protections for managed care enrollees as specific requirements for contracts
     between States and plans, including very specific provisions for plans’ internal grievance
     procedures.

     Currently, 49 States have used the freedom granted by waivers and the State Plan option to
     move all or part of their Medicaid population into managed care. As of December 1999,
     almost 18 million, over half of all Medicaid recipients, received services through one or more
     managed care plans. Medicaid managed care organizations are the most common type of plan
     and enroll over 12 million beneficiaries. These plans strive to provide comprehensive and
     preventive services to members. Prepaid health plans serve more than 8 million, and provide a
     limited set of services or a set benefit package. States use primary care case management
     providers, usually physicians, to locate, coordinate, and monitor the delivery of services for
     over 4 million beneficiaries. We use the term “managed care plan” or “plan” to refer
     collectively to these three types of managed care, except in discussion of plans’ internal
     grievance processes.

Dispute Resolution under Medicaid Managed Care

     In 1970, the Supreme Court guaranteed recipients of government assistance broad due process
     rights. Under Goldberg v. Kelly (397, U.S. 254, 1970), the Court held that beneficiaries of
     Federal entitlement programs are accorded constitutional protections when their benefits are
     adversely affected by government action. These rights were extended to Medicaid managed
     care beneficiaries in 1993 in J.K. v. Dillenberg (836 F Supp. 694, 699 D AZ 93). The Court
     stated that “ . . . it is unreasonable to presume that Congress would permit a State to disclaim
     Federal responsibilities by contracting away its obligations to a private entity.” The right to a
     fair hearing under Medicaid managed care was further strengthened in a 1995 decision by the
     2nd Circuit Court of Appeals (Catanzano v. Dowling). The Appeals Court found that an
     independent contractor did not have unilateral authority to reduce services without notifying the
     beneficiary, allowing a hearing on the matter, and providing aid-continuing rights.

     To fulfill due process requirements, all States must guarantee Medicaid beneficiaries access to
     State fair hearings. The specifics of the process vary greatly by State, but the basic structure
     described in Figure 1 is fairly constant. In general, beneficiaries must file within a specified time
     to have their case heard by a State fair hearing officer. This hearing officer may be an
     Administrative Law Judge (ALJ), and can be part of the State Medicaid or other State agency.
     The hearing is often conducted in person, and any party to the hearing may have legal
     representation. The hearing officer or ALJ issues a recommended decision which is reviewed
     and finalized by another party, such as the head of the agency conducting the hearing. The
     beneficiary may petition the State judicial system if dissatisfied with the outcome of the hearing,
     in which case the Attorney General or agency’s general counsel would represent the State’s
     interest.

     3
      States may waive the 2-plan requirement in rural areas, if a single eligible plan meets certain conditions.
          Medicaid Managed Care Dispute Resolution
                                                        6                                             OEI-09-99-00450
                              Figure 1: Basic Dispute Resolution

     Beneficiary wishes
                                         Beneficiary files for
     to dispute an MCO
                                         State Fair hearing.
     decision.
                                                                      Opportunity for
                                                                      judicial review


    Beneficiary uses                          Does the State
                                       Y      require
    internal MCO process.
                                              exhaustion?


                                                     N
                                                                           N

          Is the                       Hearing takes place in              Is the
          beneficiary
                         N             front of ALJ or hearing             beneficiary
          satisfied?                   officer.                            satisfied?


            Y                                                              Y


                                           Dispute resolved


     All contracted plans must operate their own internal grievance process. In States with an
     “exhaustion requirement,” beneficiaries must follow this process to completion before filing a
     hearing request. Like the States, plans are usually afforded much latitude in developing their
     own dispute resolution procedures. As a result, it is difficult to describe a ‘typical’ plan
     process, though most include several levels of internal review. Since primary care case
     management plans do not operate an internal grievance process, their enrollees either file
     directly for a fair hearing or go to a State grievance process, depending on their State.

New Regulations

     To implement provisions of the Balanced Budget Act, HCFA published a final rule on January
     19, 2001 (after we had completed our fieldwork) which amends the Medicaid regulations. The
     regulations are scheduled to become effective on April 19, 2001. Among other provisions, the
     rule significantly increases regulatory requirements for plans’ grievance processes. For
     instance, although the following provisions generally appear in contracts, the rule mandates that
     all Medicaid plans:



          Medicaid Managed Care Dispute Resolution
                                                     7                               OEI-09-99-00450
        <        provide a dispute resolution system including grievance and appeal processes as well as
                 access to the State fair hearing system;
        <        provide an expedited grievance process when warranted by a beneficiary's medical
                 condition; and
        <        track and maintain a log of all grievances and appeals.

        The final rule includes provisions for creating a national standard for dispute terminology. 

        Currently, States and plans do not use consistent terminology to describe aspects of their

        grievance systems. When implemented, the rule will define an appeal as “a request for review

        of an action,” a grievance as “an expression of dissatisfaction about any matter other than an

        action,” and a quality of care grievance as “a grievance filed because the enrollee believes that

        any aspect of [their] care [was substandard].”


        The final rule also delineates plans’ responsibilities for educating and notifying beneficiaries

        about plan decisions and grievance and appeal rights. Under current regulations, States must

        issue and publicize their fair hearing procedures in language that can be understood by

        beneficiaries and must notify beneficiaries of their right to a fair hearing whenever there is:


        <        a denial of eligibility,

        <        an unreasonable delay in acting upon a claim,

        <        a termination of eligibility or covered services,

        <        a suspension of eligibility or covered services, or

        <        a reduction of eligibility or covered services. 


        The new regulations require that managed care plans distribute their grievance and appeal

        procedures to beneficiaries as well, including their right to State fair hearing. Plans must

        provide notice when they; terminate, suspend, or reduce previously authorized services; deny

        payment on a claim; or deny or limit a service request.


Previous Work

        A recent National Health Law Program study found that beneficiaries often face significant
        challenges when resolving service disputes with a managed care organization. Obtaining
        medical records, understanding notices, and even calling the health plan for assistance can be
        troublesome for Medicaid beneficiaries, who by definition, have limited resources. These
        difficulties are compounded for individuals who are illiterate or lack access to a telephone.4
        Work by other advocacy organizations supports the finding that Medicaid managed care
        enrollees have difficulty exercising their rights.




        4
        Kristi Olson, J.D. and Jane Perkins, J.D., M.P.H. Medicaid Managed Care and Due Process: The Law, Its
Implementation, and Recommendations, National Health Law Program, May, 2000.
             Medicaid Managed Care Dispute Resolution
                                                        8                                        OEI-09-99-00450
METHODOLOGY

    We selected a purposive sample of nine States for this study. In Iowa, we focused on the
    State’s behavioral health carve-out. Figure 2 shows the States we visited and the enrollment
                                                                                 information used to
    Figure 2: Medicaid Managed Enrollment by State
                                                                                 select them. In
               As of December 31, 1999 according to HCFA’s w ebsite
                                                                                 addition to these
    State              Medicaid          Medicai d Managed           Percent in
                                                                                 criteria, we based
                      Enrollment           Ca re Enrollme nt        Managed Care
                                                                                 our selection on
  Ca li fornia         5,023,266               2,606,524                51.9     geographic and
   Florida             1,594,757                  959,875               60.2     program diversity.
                                                                                 During the selection
    Io wa                207,830                  179,462               86.4
                                                                                 process and
  Maryland               475,014                  386,012               81.3     throughout the study,
                                                                                 we worked closely
 Massachusetts           910,493                  647,018               71.1
                                                                                 with HCFA and the
  Minnesota              446,635                  268,288               60.1     Assistant Secretary
   M issouri             719,684                  297,705               41.4     for Planning and
                                                                                 Evaluation.
   Tennessee            1,348,677                1,305,619        96.8

  Washington               728,794                   712,698      97.8      In each State, we
                                                                            interviewed State
     Medicaid agency staff, fair hearing officers or Administrative Law Judges, and the Attorney
     General or Office of General Counsel. We also spoke with at least one legal advocacy
     organization and reviewed at least one plan in each State. Finally, we met with HCFA
     personnel from each region visited. In total, we interviewed more than 160 individuals involved
     with Medicaid managed care dispute resolution.

     We analyzed State policies, regulations, guidelines, and enrollee information, including
     educational materials (i.e., member handbooks) and beneficiary notices from the nine States.
     We also conducted a thorough literature review to identify legal and policy work on Medicaid
     dispute resolution.

     This study was conducted in accordance with the Quality Standards for Inspections issued by
     the President’s Council on Integrity and Efficiency.




          Medicaid Managed Care Dispute Resolution
                                                       9                              OEI-09-99-00450
                                            FINDINGS

Dispute resolution systems have been established in the
sampled States
Beneficiaries have many options

         In every State that we visited, Medicaid managed care enrollees have multiple avenues to
         address any disputes they have with their managed care plan. In addition to the internal plan
         process and the State hearing (except in Massachusetts5), five of the nine States have
         Statewide ombudsman programs, while two others operate programs in a limited area. These
         programs assist beneficiaries through either plan or State processes, and may also act on the
         State’s behalf in tracking dispute activity. The State Medicaid agencies in two other States
         investigate complaints outside of the fair hearing process. In four States, beneficiaries may
         bring a dispute to an outside agency, such as the Department of Insurance, rather than request a
         fair hearing.

         While Medicaid beneficiaries appear to be well-served by this array of options, advocates and
         others express concern that the number of processes may confuse clients. Indeed, it is not
         always clear from notices and educational materials why one would choose one process rather
         than another. For example, beneficiaries in one State have five separate choices for pursuing a
         dispute, each with its own rules. In several States, outside agencies typically just refer clients
         back to the State or plan to seek resolution. This could be extremely frustrating for people who
         are already unhappy with their situation. Furthermore, informal processes in some States may
         actually act against beneficiaries’ right to a fair hearing, as in the case of the “ombudsman”
         programs in two States that actually define their role as trying to mediate a solution and “avoid
         going to the ALJ.”

         A number of managed care plans serve both Medicaid and Medicare beneficiaries. Such plans
         must maintain different dispute resolution systems for each program. Several plan
         representatives we interviewed commented that dealing with multiple processes was
         cumbersome and inefficient.

In-plan dispute resolution can be difficult to access, but also effective

         In-plan dispute resolution processes usually involve multiple layers of review which, in some
         cases, may be difficult to access. While the lowest level of review is usually triggered by phone
         contact, higher levels require written notification to the plan. To file a grievance at one plan, the


         5
          Massachusetts has ruled that provider or plan actions are not State actions. Therefore, beneficiaries
cannot bring a dispute with their plan to a fair hearing.
              Medicaid Managed Care Dispute Resolution
                                                          10                                             OEI-09-99-00450
      member must provide very specific documentation, including a record of each contact the
      member has made with the plan about the problem with dates and names as well as a request
      for a specific resolution of the issue. We found nothing in the health plan's policy or member
      materials which indicates that this requirement has been communicated to plan members.
      Rather, plan documents indicate that if these materials are not included, a grievance request
      should simply be denied. Procedures at this and other plans also stipulate that the member is
      responsible for obtaining and submitting any pertinent medical records from their provider.

      If successfully accessed, using a grievance process can be an effective and efficient way to
      resolve disputes. Most of the plans to which we spoke indicated that they resolve more than
      90 percent of disputes to the member’s satisfaction at the lowest, or "complaint," level. Plan
      processes can be very effective at clearing up "minor" issues such as missing member materials
      and personal conflicts between providers and patients. Plans are able to resolve issues quickly;
      usually, they can satisfy members at the time of contact. Each plan overturns a significant
      number of their own decisions at some level of review, from about 20 percent of decisions at
      one plan to well over 50 percent at several others.

Hearing officers try to provide user-friendly hearings

      Every State we visited complies with HCFA requirements for the impartiality of hearing
      officers, but they employ very different people in that role. Six of the nine States use ALJs to
      hear cases, while the other three use hearing officers with varying degrees of training. No
      sampled State has hearing officers or ALJs dedicated solely to managed care cases, though
      many specialize in “general” Medicaid. While some State Medicaid agencies use independent
      agencies to conduct hearings, a division of the Medicaid agency hears cases in other instances.
      Hearing officers who operate independently from the State agency believe this separation is
      critical in getting beneficiaries to trust the system.

      The State fair hearing is generally a user-friendly process. Hearing officers, State Medicaid
      agencies, and advocates typically describe the tone of the hearing as “informal” or “non­
      adversarial.” Since most beneficiaries are not represented by a lawyer, hearing officers are
      usually very lenient with them in terms of rules of evidence. Indeed, advocates in several States
      laud hearing officers for their fairness and equity. In some instances, the State agency may even
      help the beneficiary by suggesting they present certain evidence which supports their case.
      Despite the general good feeling about the hearings, some advocates and ALJs believe that the
      process is inherently unfair. They maintain that the leeway accorded pro se clients does not
      always compensate for clients’ lack of medical or legal expertise where the State or plan
      frequently has one or both readily available.

      We found that, as mandated by Federal regulations, States provide the opportunity for
      beneficiaries to attend a hearing in a forum that is reasonably convenient to them. The primary
      location for hearings is the local assistance office in many States, but the beneficiary can request
      a telephone, video-conference, or even in-home hearing if needed. In one State, most hearings
      were actually conducted by phone. Interestingly, advocates in that State complained that a
      phone conference was very intimidating and limited
          Medicaid Managed Care Dispute Resolution
                                                     11                               OEI-09-99-00450
         beneficiaries' ability to present their case, while advocates in other States generally called for
         greater access to phone hearings because of their convenience and non-threatening
         atmosphere.



States conduct few managed care hearings, and managed
care plans receive relatively few complaints and grievances
         The sampled States conduct very few fair hearings for Medicaid enrollees in managed care
         organizations. Excluding Tennessee,6 the greatest number of 1999 hearing requests in any
         sample State was approximately 360, in California. Florida reported the fewest number of
         requests, with only 3 during the past 14 years. Similarly, most plans handle relatively few
         complaints and grievances, compared to the number of beneficiaries they serve. The actual
         number varies greatly by plan, from a low of about 50 complaints for one plan in 1999 to about
         150 per month at another. The majority of complaints at some plans come from providers
         rather than members.

         Many structural factors contribute to the low number of complaints, grievances, and fair hearing
         requests. The size of the population enrolled in Medicaid managed care plans obviously
         influences the number of disputes. The presence of an exhaustion requirement may decrease
         the number of fair hearings in a State as issues are sorted out in the plans. In open enrollment
         States, dissatisfied members may simply switch plans or opt out of managed care entirely rather
         than pursue a dispute. Beneficiaries may choose to use outside agencies in States where they
         are available. Florida, for example, owes its low number of hearings primarily to its Statewide
         Provider and Subscriber Assistance Panel which hears Medicaid and commercial appeals.

         On the other hand, some advocates and others believe that beneficiaries are not aware of their
         rights or are reluctant to exercise them. Notices and educational materials often do not provide
         beneficiaries clear instruction on filing a fair hearing request. Hence, the low number of appeals
         may be partially due to beneficiaries’ lack of knowledge and understanding of their rights.
         Lengthy grievance processes may discourage beneficiaries from further pursuing a dispute,
         especially in States which require exhaustion. In addition, beneficiaries may be intimated by
         what they view as a very “official” process. Finally, some HCFA regions and State personnel
         believe that certain plans routinely record issues that are truly complaints as simple inquiries.

         The attitude of Medicaid personnel in many of the sampled States may contribute to the low
         numbers of hearings. In nearly all of the States we visited, State staff tend to view hearings as
         an undesirable last resort in disputes. Even where exhaustion is not required,



         6
         Tennessee operates its dispute resolution process under a consent decree established in Daniels v.
Wadley and revised in Grier v. Wadley (M.D. TN, No. 79-3107) in which every dispute goes directly to the State
Agency. Hence, Tennessee's number of fair hearings in 1999 was abnormally large compared to the other eight
States.
              Medicaid Managed Care Dispute Resolution
                                                         12                                           OEI-09-99-00450
    beneficiaries are usually encouraged to attempt resolution with the plan before proceeding to
    fair hearing. For example, a plan in a State that does not require exhaustion told us that, except
    in egregious cases, the State agency will not grant a hearing request if the member has not
    worked through the plan process. Regulations in another State allow the Medicaid agency 5
    days after a fair hearing request to attempt mediation between the member and the plan. The
    hearing request telephone line is understaffed and impossible to get through according to nearly
    all respondents in a third State, which may discourage beneficiaries from filing.


Member materials and notices are often inadequate
    Although member materials from all States and plans contain some information about appeal
    procedures, they vary widely in quality. Plan membership materials generally have a fairly
    detailed explanation of the in-plan process, but do not articulate the fair hearing process nearly
    as well. It is often unclear from reading the materials when a member may request a fair
    hearing, why one would do so, and by when the hearing must take place. In a few States that
    do not have exhaustion requirements, member handbooks inaccurately imply that a member
    must first work through the plan process. Many also fail to inform beneficiaries that they can be
    represented at a hearing, and none refer beneficiaries to specific legal assistance organizations.
    State handbooks and pamphlets are little better in most cases; though they contain more
    detailed information on the hearing, including timeframes, they still fail to direct beneficiaries to
    legal assistance. In addition, neither State nor plan materials include information about hearing-
    related expenses such as transportation that might be reimbursed.

    Though some are better than others, we found many deficiencies in the notices we reviewed.
    Overall, adverse action notices do not clearly explain the action being taken and why. Most
    denial and complaint acknowledgment letters describe the options available for disputing the
    decision, but they tend to downplay the State hearing process in much the same way as
    handbooks. When a written request for appeal is required, notices do not specify the form that
    the request must take and what supporting documents must also be submitted. One plan
    provides fair hearing information only on the letter which follows the highest level of in-plan
    appeal. We were told that until recently there had been an exhaustion requirement in the State
    and the letters still reflected its use. The HCFA had requested that the State drop its exhaustion
    requirement well over a year before our visit.

    Despite minimum requirements in every State for the readability of notices and educational
    materials, we found much of the language on materials to be unclear and imprecise. Every
    State imposes minimum requirements on the readability of notices, ranging from 4th to 7th
    grade reading levels, but some materials seem to require more advanced comprehension skills.
    For example, a section of one beneficiary notice reads; “This notification restricts neither you
    nor your physician’s individual choice of continued medical care and service. However, this
    determination could result in non-payment of the claims for services provided on your behalf.”



        Medicaid Managed Care Dispute Resolution
                                                   13                               OEI-09-99-00450
      Figure 3: Useful Form from State Handbook                We also found that few States require
                                                               that materials have instructions for
                                                               obtaining documents in another
                                                               language, or a format for the visually
                                                               impaired. In addition, some State
                                                               educational materials have not been
                                                               updated to reflect the presence of
                                                               managed care and refer only to a
                                                               beneficiary’s right to dispute a State
                                                               or county decision.

                                                                  Despite the overall poor quality of
                                                                  notices and handbooks, we found
                                                                  some promising approaches in a few
                                                                  States. To address language needs,
                                                                  one State mandates that all materials
                                                                  contain a “language block,” where
                                                                  the importance of the material and the
                                                                  availability of translation is explained
                                                                  in seven languages. This same State
                                                                  and one other provide very good
                                                                  handbooks which include forms for
                                                                  recording important information from
                                                                  the plan representative when making
a complaint (Figure 3) as well as a form letter for filing a fair hearing request. The hearing agency in
another State produces an excellent pamphlet which explains what a beneficiary should bring to and
expect from a State hearing. Materials from a few plans clearly and completely explain how and why a
beneficiary would use each of the dispute resolution processes available.



Regulations governing fair hearing timeframes are flexible,
but can be ambiguous
       Federal regulations intentionally allow States some flexibility in setting fair hearing timeframes.
       For example, according to the regulations and the HCFA State Medicaid manual, States must
       provide beneficiaries at least 20, but not more than 90, days to file a fair hearing request after
       receiving a notice of adverse action. We found that some States permit the full 90 days, while
       others require filing in 30 or 45 days. Advocates in these States agree that the shorter time
       periods are still sufficient to allow a beneficiary to request a hearing.




            Medicaid Managed Care Dispute Resolution
                                                       14                              OEI-09-99-00450
     The fair hearing regulations do not address the interaction between hearings and plan

     grievances. This has caused States to implement dispute resolution timeframes which may not

     be consistent with the intent of Federal guidelines. For instance, regulations require that final

     administrative action be taken within 90 days of a hearing request, but do not discuss how using

     the plan process affects this standard. In all but three States, in-plan dispute resolution alone

     can take significantly longer than 90 days if all steps are exhausted. Furthermore, beneficiaries

     who adhere to the plan process could lose their right to file a fair hearing because of its

     lengthiness, though State officials say they would allow a fair hearing request made after the

     deadline in such cases.


     While plans in all nine States provide expedited timeframes for dispute resolution in urgent

     cases, only one State includes a description of a formal process for expediting State hearings in

     enrollee handbooks. Most States require plans to respond to medically urgent issues within 72

     hours, though several allowed only 1 day while another permits

     5 days. If the plan upholds its determination upon expedited review, further levels of appeal,

     including fair hearings, are not necessarily expedited. One hearing officer mentioned that

     hearings can be fast-tracked by an informal request from the State Medicaid agency.




States have different interpretations of the plan’s role, as well
as their own, in fair hearings
     Federal regulations do not specifically address the role of managed care plans in fair hearings
     and, as such, they assume very different roles among the nine States. In some, the plan
     represents the State’s interest in fair hearings and beyond, while in others the plan is seldom, if
     ever, a party to the hearing. In one State, the member and the plan each present their side to
     an impartial referee from the State. The plan then represents the State in any resulting judicial
     action. The State Attorney General is concerned about this arrangement, saying that plans
     might routinely appeal decisions adverse to them since the State pays court costs. In other
     States, plans are frustrated because their participation is limited to merely providing records
     before the hearing. Plans in these States do not typically have the opportunity to defend their
     decision before the hearing officer.

     Two States have arrangements that seem to violate Federal rules for the impartiality of hearing
     decisions. The HCFA State Medicaid manual states that “no person who has previously
     participated at any level in the determination upon which the final decision is based may
     participate in the [final] decision.” In one State, however, the ombudsman fields all fair hearing
     requests and attempts mediation and also reviews all hearing decisions before they are made
     final. In another State, beneficiaries can register complaints with the commissioner of the
     Department of Health (which is not the State Medicaid agency in that State), only to have that
     same commissioner act as the final authority on hearing decisions.


         Medicaid Managed Care Dispute Resolution
                                                    15                               OEI-09-99-00450
       Federal guidelines state that a fair hearing decision may be extended to all beneficiaries
       in an identical situation, but we found that hearing decisions are not precedential. While
       groups of hearings centered around the same subject area often trigger a change in State
       policy, single decisions do not. Similarly, hearing officers say that while they may
       consult earlier decisions to help form an opinion on a case, they do not have to take that
       case as legal precedent in a parallel situation.


Oversight of dispute resolution is inconsistent
HCFA regions are seldom involved in oversight

       We found that most HCFA regional offices conduct little ongoing oversight of Medicaid
       managed care dispute resolution. Typically, regional personnel describe their
       involvement in dispute resolution as “reactive.” That is, they respond to issues brought
       to their attention but do not regularly review State activity. States are required to report
       quarterly under 1115 waivers and every 2 years for 1915(b) waivers, but only two States
       say they regularly submit detailed dispute information. Several other States reported that
       their regional office performs periodic on-site reviews. Many regions conducted intense
       reviews when their States first implemented managed care waivers, but rarely conduct
       reviews now. We found that regional offices varied greatly in the amount of information
       they could provide us about their States.

       If a region uncovers a problem, there is little they can do to compel the State to come into
       compliance. Although they have sanction authority or may withhold waiver approval, as
       a matter of practice, regional offices do not often employ these penalties. More
       frequently, HCFA may impose additional terms and conditions on existing waivers, or
       delay waiver approval. Though several regions say they have no effective means to
       compel compliance once the waiver is approved, all report that they can usually work
       with the State in a cooperative manner to address any concerns.

While many States conduct rigorous oversight of plans, others adopt a more
relaxed attitude

       Most of the States we visited work closely with their contracted plans in an oversight
       capacity. All States impose data collection requirements on plans and most use this data
       to spot trends and address weaknesses in the system. Two States require that plans report
       all written complaints immediately; one of these also collects monthly data on denials,
       terminations, and reductions of service. The other States receive periodic reports on plan
       grievance activity. In most States, agency staff perform annual on-site reviews of the
       plans, and two States use an external quality review organization to monitor dispute
       resolution. Lastly, States typically review and approve beneficiary notices and marketing
       materials before distribution, and some provide mandatory language to be included in
       notices and handbooks.

 Medicaid Managed Care Dispute Resolution       16                                     OEI-09-99-00450
      A few States are noticeably more lax than others in fulfilling their oversight role. When asked
      how they ensured compliance with Federal requirements, these States often responded that
      they relied primarily on the plans’ adherence to contracts. Although these States collect data,
      respondents were unsure how and if the data are being used.

      There is little coordination among agencies in States with multiple dispute resolution processes.
      In some, the State Medicaid agency and the hearing agency may each track appeal cases
      separately and not share data. In others, Departments of Insurance or Corporations and the
      State Medicaid agencies impose different, but overlapping, data collection requirements. One
      State official noted that no communication exists between the Department of Corporations and
      the State Medicaid agency, even when both are working on an appeal for the same beneficiary
      and issue.

States and plans define and use dispute data differently

      Lack of consistent definitions of dispute terminology complicates oversight for both HCFA and
      the States. Some States define complaint, grievance, and appeal by how a member contacts
      the plan; an oral communication is a complaint, a written communication is a grievance, and an
      appeal is a formal request for reconsideration of the resolution of either of these. Another
      common distinction is to consider a complaint that remains unresolved after a certain time
      period a grievance. Still other States use one set of terms to describe disputes about
      administrative issues and another set for clinical issues. In at least two States, plans use
      different terminology within the State.

      In part due to conflicting definitions of dispute terms, State and plan performance is difficult to
      assess based on available data. Currently, the inconsistent quality of State data would make it
      difficult for HCFA to assess a State’s performance by just reviewing reports. Similarly, it is
      nearly impossible to compare plans within a State if they use different definitions for dispute
      terms. Although reviewing the disposition of cases at the plan level can give some insight into
      the fairness of the process, it is impossible to judge the quality of decisions by looking at
      numbers. In addition, plan data show that a significant number of cases are abandoned at each
      level. A look behind these numbers is necessary to determine if beneficiaries are dropping
      cases intentionally or if they are not aware of their options for pursuing a dispute.

      Perhaps more important is the concern that some plans routinely record complaints as simple
      inquiries. One plan told us that they do not consider any issue resolved at the time of contact to
      be a complaint, and therefore do not log all the complaints they receive. This is probably true
      of other plans as well; another reported receiving over 200,000 calls to customer service in
      1999, but only logged 924 complaints and 145 grievances, while a third received 22,464 calls,
      citing just 198 complaints and no grievances the same year. States may be unintentionally
      influencing plans by viewing complaints as a negative indicator of plan performance. States that
      view complaints as an opportunity to better serve beneficiaries and cultivate this understanding
      at the plans seem to have more faith in plan data.


          Medicaid Managed Care Dispute Resolution
                                                     17                               OEI-09-99-00450
                   RECOMMENDATIONS

    Overall, the dispute resolution systems in the nine States we studied appear to be working as
    intended. There are, however, opportunities for improvement. The final rule published by
    HCFA in the January 19, 2001 Federal Register addresses problems we found regarding
    inconsistent dispute terminology, unclear dispute timeframes, and beneficiary education and
    notification. The rule becomes effective on June 18, 2001. To further strengthen the dispute
    resolution process, we recommend that HCFA:



Develop model beneficiary notices and handbooks
    Frequently, beneficiary notices and member materials do not adequately explain the dispute
    resolution process. To encourage innovation, HCFA should continue to allow States and plans
    to develop their own materials, but should assist them by developing a model explanation of
    grievance and fair hearing rights. The explanation should be written at the fifth grade level or
    lower, and it should contain clear instruction on how to access the dispute resolution process.
    While the final rule outlines notification and information requirements, HCFA may wish to
    provide template materials as a visual reference for States.



Improve regional oversight
    As noted in the findings, we found several situations where States do not meet Federal
    requirements. For example, two States apparently violate impartiality provisions and hearing in
    all sampled States are not precedential. The HCFA should review all States’ policies and
    procedures to ensure that each State is meeting all procedural requirements for the fair hearing
    process.

    We found that the inconsistency of State data makes it difficult for HCFA to assess State
    performance and compliance. The final rule requires plans to log and track grievances and
    appeals and submit data at least yearly to the State. We believe that HCFA should require
    plans to log all calls to the grievance unit, not just those that result in the beneficiary filing a
    grievance or appeal. Such data may provide clues to possible downcoding at a plan. We also
    believe that data should be reviewed by the States at least quarterly to help identify emerging
    issues.

    In order to identify national trends and issues, HCFA should develop a standardized quarterly
    report of grievances, appeals, and fair hearings which States would submit to the HCFA
    regional offices. This report could be tied to current waiver requirements, but should be
    detailed enough to provide some insight into States’ dispute resolution

        Medicaid Managed Care Dispute Resolution
                                                   18                                 OEI-09-99-00450
    activities. Data could then be used to target areas for regional offices’ on-site reviews or could
    trigger an immediate review if necessary. To ensure compliance with reporting requirements,
    HCFA should aggressively monitor contracts and State data collection systems during
    implementation of the final rule.



Use, and encourage States to use, dispute resolution data as
a tool for improving quality of care
    Treating disputes as an opportunity to strengthen customer service would help to identify
    weaknesses in the system, improve the consistency of reporting, reduce downcoding, and
    improve oversight. The HCFA should also encourage States to use dispute data to target areas
    for quality improvement. One State that we visited successfully uses complaints to continuously
    improve quality of care and has fostered this practice at its Medicaid managed care plans.



AGENCY COMMENTS
    We received written comments from HCFA on the draft report (see Appendix). The HCFA
    concurred with our recommendations. In response to our recommendations, HCFA will
    improve Medicaid consumer communications, regional oversight of the appeals process, and
    dispute resolution data.




        Medicaid Managed Care Dispute Resolution
                                                   19                              OEI-09-99-00450
                                                APPENDIX



                          Agency Comments





Medicaid Managed Care Dispute Resolution
                                           20       OEI-09-99-00450
                                                APPENDIX




Medicaid Managed Care Dispute Resolution
                                           21       OEI-09-99-00450
